CERTIFICATION
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 7,553 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on August 20, 2020.

s/Katherine Keating
Katherine Keating
Counsel of Record
BRYAN CAVE LEIGHTON PAISNER LLP
Three Embarcardero Center
7th Floor
San Francisco, California 94111
415-675-6400
Counsel for Amici Curiae
Family Equality and
PFLAG National

